<html>
<title> - GOVERNMENT PREPAREDNESS AND RESPONSE TO A TERRORIST ATTACK USING WEAPONS OF MASS DESTRUCTION</title>
<body><pre>[Senate Hearing 111-884]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-884
 
   GOVERNMENT PREPAREDNESS AND RESPONSE TO A TERRORIST ATTACK USING 
                      WEAPONS OF MASS DESTRUCTION

=======================================================================



                                HEARING

                               before the

                       SUBCOMMITTEE ON TERRORISM,
                    TECHNOLOGY AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 4, 2010

                               __________

                          Serial No. J-111-106

                               __________

         Printed for the use of the Committee on the Judiciary


                  U.S. GOVERNMENT PRINTING OFFICE
64-769                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
             Brian A. Benzcowski, Republican Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                 BENJAMIN L. CARDIN, Maryland, Chairman
HERB KOHL, Wisconsin                 JON KYL, Arizona
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
AL FRANKEN, Minnesota                TOM COBURN, Oklahoma
EDWARD E. KAUFMAN, Delaware
                Bill Van Horne, Democratic Chief Counsel
               Stephen Higgins, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cardin, Hon. Benjamin L. Cardin, a U.S. Senator from the State of 
  Maryland.......................................................     1
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     2

                               WITNESSES

Baker, James A., Associate Deputy Attorney General, U.S. 
  Department of Justice, Washington, DC..........................     5
Beckham, Steward D., Director, Office of National Capital Region 
  Coordination, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security, Washington, DC................     6
Fein, Glenn A., Inspector General, U.S. Department of Justice, 
  Washington, DC.................................................     3
Frankel, Michael J., Executive Director, Commission to Assess the 
  Threat to the U.S. from Electromagnetic Pulse (EMP) Attack, 
  McLean, Virginia...............................................    14
Larsen, Randall J., Colonel, USAF (Retired), Executive Director, 
  Commission on the Prevention of Weapons of Mass Destruction 
  Proliferation and Terrorism, Washington, DC....................    12

                         QUESTIONS AND ANSWERS

Responses of Steward D. Beckham to questions submitted by Senator 
  Kyl............................................................    20

                       SUBMISSIONS FOR THE RECORD

Baker, James A., Associate Deputy Attorney General, U.S. 
  Department of Justice, Washington, DC..........................    22
Beckham, Steward D., Director, Office of National Capital Region 
  Coordination, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security, Washington, DC................    27
Fein, Glenn A., Inspector General, U.S. Department of Justice, 
  Washington, DC.................................................    31
Frankel, Michael J., Executive Director, Commission to Assess the 
  Threat to the U.S. from Electromagnetic Pulse (EMP) Attack, 
  McLean, Virginia...............................................    41
Larsen, Randall J., Colonel, USAF (Retired), Executive Director, 
  Commission on the Prevention of Weapons of Mass Destruction 
  Proliferation and Terrorism, Washington, DC....................    46


   GOVERNMENT PREPAREDNESS AND RESPONSE TO A TERRORIST ATTACK USING 
                      WEAPONS OF MASS DESTRUCTION

                              ----------                              

                  WEDNESDAY, AUGUST 4, 2010
                                       U.S. Senate,
                                 Subcommittee on Terrorism,
                          Technology and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, Chairman of the Subcommittee, presiding.
    Present: Senators Cardin and Kyl.

 OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR 
                   FROM THE STATE OF MARYLAND

    Chairman Cardin. Good morning, everyone. The Subcommittee 
on Terrorism and Homeland Security of the Senate Judiciary 
Committee will come to order. Our hearing today deals with 
Government preparedness and response to terrorist attacks using 
weapons of mass destruction. I particularly want to thank 
Senator Kyl for his interest in this subject. He has requested 
this hearing. I think it is an extremely important hearing for 
us to hold. It is obviously a subject we do not really want to 
talk too much about because it, quite frankly, is rather 
frightening. And I think all of us very much want to make sure 
that we do everything we possibly can to prevent a terrorist 
attack, any terrorist attack in this country, but particularly 
those that use weapons of mass destruction.
    The 9/11 attacks shocked the Nation as we witnessed the 
slaughter of thousands of Americans from all walks of life. The 
U.S. Government and the international community responded 
quickly and in unison to defend freedom and democracy from al 
Qaeda and terrorist organizations around the world. That 
struggle continues today against an enemy determined to strike 
again in the United States using more powerful and terrifying 
weapons.
    The 9/11 Commission wrote that, and I quote: ``We need to 
design a balanced strategy for a long haul to attack terrorists 
and prevent their ranks from swelling while at the same time 
protecting our country against future attacks. We have been 
forced to think about the way our Government is organized. The 
massive departments and agencies that prevailed in the great 
struggles of the 20th century must work together in a new way 
so that all the instruments of national power can be 
combined.''
    It has been nearly 9 years since the 9/11 attacks, and the 
U.S. Government has undergone a dramatic change. Congress 
created the Department of Homeland Security which involved the 
largest reorganization of Government since the creation of the 
unified Department of Defense after the end of World War II. We 
have created an array of new intelligence and law enforcement 
agencies designed to disrupt, prevent, and respond to a 
terrorist attack in the United States. We have seen a sharp 
increase in the amount of classified information and programs 
in the U.S. Government, which requires careful oversight by 
this Subcommittee, the Congress, and the courts.
    In today's hearing we will examine one piece of our 
Government's preparedness and response to a terrorist attack. 
Specifically, the Subcommittee will examine what would happen 
if the unthinkable happens: Terrorists are successfully able to 
launch an attack within the United States using a weapon of 
mass destruction. A weapon of mass destruction attack can occur 
through the use of chemical, biological, radiological, or 
nuclear weapons.
    Before introducing our panelists, let me turn to the 
Ranking Republican Member, Senator Kyl, for any comments that 
he might wish to make.

  STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator Kyl. Thank you, Mr. Chairman, and, again, thank you 
for holding this hearing.
    Our preparedness for an attack by weapons of mass 
destruction is an issue of vital importance. Unfortunately, as 
you noted, with the passage of time it receives little 
attention. While unfriendly nations have had the ability to 
inflict great damage with weapons of mass destruction and 
terrorist groups have sought the capacity to do so for some 
time, our Government is not sufficiently prepared for such an 
attack.
    One threat to which the Government is particularly ill-
equipped to respond is the threat posed by an electromagnetic 
pulse, or an EMP attack. When a nuclear weapon is detonated 
hundreds of miles above the Earth, the resulting radiation 
would react or interact with the Earth's atmosphere to produce 
an electromagnetic pulse. The resulting EMP waves could cause 
severe damage to electronic devices, and just a single weapon 
could affect much of the United States. People aboard planes 
and those on life support systems at hospitals would be the 
first casualties. Without power for medical care, food 
refrigeration, gas pumps, water purification, the death toll 
could climb to staggering proportions.
    Unfortunately, a successful EMP attack would not require a 
high level of military or nuclear sophistication. A relatively 
crude nuclear weapon mounted on a Scud missile, for example, 
could be launched from a ship in U.S. waters and inflict 
massive damage on the United States.
    In 2001, Congress established a commission known as the EMP 
Commission To Assess the Threat to the United States From an 
EMP Attack. The Commission investigated the potential impact of 
such an attack and released its findings in 2004. Shortly 
thereafter, this Subcommittee held a hearing to review the 
Commission's findings and recommendations. Chief among them, 
the Commission concluded that several classes of potential 
adversaries, including terrorist groups, have or could acquire 
the capability to attack the United States with an EMP weapon 
and potentially inflict great damage.
    As the Commission stated in its report, ``Depending on the 
specific characteristics of the attacks, unprecedented 
cascading failures of our major infrastructures could result. 
In that event, a regional or national recovery would be long 
and difficult and would seriously degrade the safety and 
overall viability of our Nation.''
    The Commission also found that the damage to our vulnerable 
infrastructure would be catastrophic and the recovery process 
would be lengthy and challenging.
    While there are many topics that will be discussed today, I 
look forward to hearing an update from our witnesses on the 
current risk we face from an EMP attack as well as the steps we 
may need to take and have taken to prepare for such an attack. 
And I hope the Subcommittee will continue to pursue this matter 
and do our part to ensure that the Federal Government can 
respond to such an attack or any other attack of weapons of 
mass destruction.
    Thank you.
    Chairman Cardin. Thank you, Senator Kyl.
    Our first panel consists of three witnesses. On our first 
panel is Glenn Fine. Mr. Fine is the Inspector General of the 
Department of Justice. He has worked for the Department of 
Justice Office of the Inspector General since January 1995, 
which recently released a report entitled ``Review of the 
Department's Preparation to Respond to a WMD Incident,'' which 
I am sure will be of great interest to this Committee.
    We also have on this panel James Baker. Mr. Baker is an 
Associate Deputy Attorney General at the Department of Justice 
with responsibility for national security matters. He began his 
career in the Department of Justice in the Criminal Division as 
a Federal prosecutor during the Clinton administration.
    And, last, we have Steward Beckham. Mr. Beckham is Director 
of the Office of the National Capital Region Coordination of 
FEMA and has 26 years of experience as a leader in both the 
public and private sector. As we know, the National Capital 
Region is one of the prime areas of concern and interest.
    We very much welcome all three of you here to the 
Committee. You may proceed as you wish. We will ask that you 
hold your comments to 5 minutes, and your entire statement will 
be made part of the record.
    Mr. Fine, we will start with you.

STATEMENT OF GLENN A. FINE, INSPECTOR GENERAL, U.S. DEPARTMENT 
                   OF JUSTICE, WASHINGTON, DC

    Mr. Fine. Thank you, Senator Cardin, Senator Kyl. Thank you 
for inviting me to testify about the Department of Justice 
Office of the Inspector General's recent report regarding the 
Department of Justice's readiness to respond to a potential 
weapons of mass destruction attack.
    The potential use of a WMD poses a serious threat to the 
United States. One of the greatest concerns is that a WMD would 
fall into the hands of terrorists or that terrorists will 
develop their own WMD.
    Because of the importance of this issue, the OIG evaluated 
the readiness of the Department of Justice and its components 
to respond to a potential WMD attack. We also examined the 
readiness of Department field offices in the Washington 
National Capital Region to respond in a coordinated way to a 
potential WMD attack.
    In my testimony today, I will briefly summarize the 
findings of our report as well as the Department's response to 
it.
    First, our report concluded that the FBI has taken 
appropriate steps to prepare to respond to a WMD attack. The 
FBI has developed a WMD Directorate to manage the FBI's WMD 
operational response and other activities.
    The FBI has developed plans and handbooks to guide its 
staff in responding to a WMD incident. The FBI regularly 
participates in exercises and provides training specific to WMD 
incidents.
    In contrast to the FBI, however, we found that the 
Department as a whole did not have adequate policies or plans 
for responding to a WMD attack. We concluded that the 
management of the Department's response program was 
uncoordinated and fragmented. In addition, we found that 
Department personnel other than in the FBI received little 
training in the unique requirements associated with responding 
to a WMD incident.
    While the Department and its components conducted some 
training on continuity of operations and all-hazards response, 
little of the training focused specifically on a WMD 
operational response. Planning specifically for a WMD incident 
is important because the actions taken to ensure public safety 
and security may differ from those taken when responding to an 
incident involving conventional explosives, for example.
    Under the National Response Framework, ESF-13, the 
Department of Justice is designated as the lead agency for 
coordinating the use of Federal law enforcement resources to 
maintain public safety and security if local and State 
resources are overwhelmed during an incident. The Department 
delegated the responsibility for implementing these activities 
to the Bureau of Alcohol, Tobacco, Firearms, and Explosives. 
However, we found that the Department and the ATF were not 
prepared to coordinate Federal law enforcement activities under 
ESF-13. Our conclusion was confirmed by ESF-13 staff, one of 
whom told us that in the event of a WMD incident ``we are 
totally unprepared...right now, being totally effective would 
never happen. Everybody would be winging it.''
    Because the Washington area is a potential target for 
terrorists, we also examined the preparations of Department 
field offices in the region to respond to a WMD attack.
    In this region, Department components regularly work 
together to prepare to respond to various incidents that may 
occur during special events, such as Presidential inaugurations 
and visits by heads of state. However, outside of special 
events, only the FBI had a WMD response plan and had conducted 
WMD-specific training. When we asked officials from ATF, the 
DEA, and the U.S. Marshals Service in the National Capital 
Region if they were familiar with the FBI's WMD response plan, 
they said they were not. Some officials were not even aware of 
ESF-13 or ATF's role as the Department's coordinator in the 
event of an ESF-13 activation. This lack of awareness is 
problematic because it could inhibit a coordinated response and 
valuable time could be wasted in providing needed resources.
    Our report made five recommendations to help the Department 
better prepare to respond to a WMD incident, such as 
designating a person or office at the Department level with the 
authority to manage the Department's WMD response program; 
updating WMD response policies and plans; and establishing 
effective oversight to ensure that the Department and its 
components maintain WMD response plans and participate in 
training and exercises.
    In response, the Department stated that the fundamental 
conclusions of our report were sound and that the Department 
concurred with all our recommendations.
    Since the report, the Department has created a committee, 
the Emergency Preparedness Committee, and five subcommittees to 
address emergency response issues throughout the Department, 
including WMD response issues.
    In general, we believe the Department is taking our report 
seriously, and the Department's actions can help improve its 
preparedness to respond to a WMD attack. However, we believe it 
is essential that the Department aggressively and expeditiously 
address the deficiencies identified in our report so that it 
will be better prepared to respond if a WMD attack should 
occur. For our part, the OIG intends to continue to monitor the 
Department's progress in this critical area.
    That concludes my prepared statement, and I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Fine appears as a submission 
for the record.]
    Chairman Cardin. Thank you very much, Mr. Fine.
    Mr. Baker.

STATEMENT OF JAMES A. BAKER, ASSOCIATE DEPUTY ATTORNEY GENERAL, 
           U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Baker. Mr. Chairman, Ranking Member Kyl, and members of 
the Subcommittee, thank you for the opportunity to testify here 
today on the Department's role in responding to a WMD attack. I 
have submitted a written statement for the record.
    I would like to just make a few brief points in my oral 
remarks today and then respond to any questions that you might 
have.
    First, preventing terrorist attacks on the United States, 
including those that involve WMDs, is the highest priority of 
the Department of Justice.
    Second, should such an attack occur, the Department must be 
prepared to respond immediately and effectively in the 
aftermath of such an event.
    Among the various components of the Department of Justice 
with WMD-related responsibilities, the FBI has the lead in 
preventing such attacks from occurring and responding directly 
to such an attack should one occur. The Inspector General's 
office has concluded that the FBI is generally well prepared to 
respond to a WMD attack. The Inspector General has also 
concluded that the rest of the Department is not as well 
prepared as it should be to respond to a WMD attack. We agree 
with that conclusion.
    In addition, the Inspector General has made several 
recommendations on how we should improve the readiness of the 
Department to respond to a WMD attack. We agree with all of his 
recommendations.
    Currently, as he mentioned, we are in the process of 
implementing those recommendations, and my written statement 
describes in detail what we are doing, including the Committee 
that the Inspector General referenced.
    But let me be clear that we will not be satisfied unless 
and until the Department is fully prepared to respond 
appropriately to a WMD attack. The American people are entitled 
to expect nothing less.
    We are marshalling a great deal of resources on this issue. 
Further, we will put into place an organizational structure and 
oversight mechanisms to ensure that we maintain a proper state 
of readiness as long as the WMD threat persists. Unfortunately 
for all of us, we expect that to be a long time.
    We also look forward to working with the Subcommittee and 
the full Committee on all of the Department's emergency 
preparedness issues, and we appreciate the opportunity to 
discuss those issues here today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Baker appears as a 
submission for the record.]
    Chairman Cardin. Thank you very much for your testimony.
    Mr. Beckham.

 STATEMENT OF STEWARD D. BECKHAM, DIRECTOR, OFFICE OF NATIONAL 
   CAPITAL REGION COORDINATION, FEDERAL EMERGENCY MANAGEMENT 
  AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, DC

    Mr. Beckham. Chairman Cardin, Ranking Member Kyl, and 
distinguished members of the Subcommittee, I am Steward 
Beckham, Director of the Office of National Capital Region 
Coordination, NCRC. NCRC is located in the Department of 
Homeland Security's Federal Emergency Management Agency. Thank 
you for inviting me to appear before you today to discuss 
preparedness in the National Capital Region.
    The NCR is the fourth largest metropolitan area in the 
United States, encompassing the District of Columbia and parts 
of Maryland and Virginia. Under the Homeland Security Act of 
2002, Congress created NCRC to oversee and coordinate Federal 
programs for and relationships with State, local, and regional 
authorities within the NCR to enhance domestic preparedness.
    To fulfill its mission, NCRC has built and continues to 
foster strong partnerships and collaboration with State, local, 
and regional authorities in the NCR. As an example, I represent 
DHS and FEMA as a member of the Senior Policy Group. The Senior 
Policy Group is comprised of the homeland security advisers and 
chief emergency managers of Virginia, Maryland, and the 
District of Columbia. The Senior Policy Group plays a key role 
in sustaining a coordinated regional approach to homeland 
security and in strengthening integrated decisionmaking and 
planning in the NCR.
    To ensure adequate and coordinated all-hazards and 
catastrophic planning, the NCR has invested in regional 
planners who work on a series of plans, including some that are 
relevant to a weapon of mass destruction event in the NCR. 
Further, NCRC has partnered with the Office of Personnel 
Management to draft the NCR Federal Concept Plan of 
Catastrophic Planning Assumptions in fiscal year 2011. The 
CONPLAN will facilitate increased collaboration and integration 
of Federal planning efforts with those of State, local, and 
regional partners. Within FEMA, the National Continuity 
Programs Directorate, a sister office of NCRC, is the lead 
agent for continuity planning for the Federal executive branch, 
ensuring continuity of national essential functions under all 
hazards. NCP also provides continuity planning materials, 
training, and assistance to the NCR, as well as alert and 
warning information to the American public.
    Homeland security partners across the NCR also pursue 
coordinated communications and information sharing, equipment 
purchases, and training and exercises. This close alignment 
strengthens the region's capabilities to address all hazards, 
including weapons of mass destruction.
    Examples of the NCR's commitment to concerted action 
include:
    Regional interoperability, where the NCR is currently 
working on two infrastructure projects: the Interconnected 
Government Networks and the Data Exchange Hub. These two 
projects represent technology advancements that provide 
responders with the data they need, anytime and anywhere.
    Second, Metrorail Tunnel Response Operations. This program 
will provide emergency equipment caches at each underground 
Metro station and design the prototype for a tunnel rescue 
cart.
    Third, the NCR Syndromic Surveillance Network, ESSENCE, is 
a disease surveillance system that captures health department 
data to provide early detection capability. The system has been 
fully operational since 2004.
    Fourth, the NCR has installed an information-sharing system 
called LinX. This system links local, State, and Federal law 
enforcement data bases. Currently there are 25 NCR agencies 
participating. The NCR partnered with Baltimore and the Hampton 
Roads area to expand LinX and joined the three urban areas 
together in March of this year.
    FEMA and the Department of Homeland Security have provided 
over $600 million to NCR partners since the inception of the 
Department, through UASI, the State Homeland Security, and 
other grant programs. These programs support planning, 
training, equipment purchases, and exercises for WMD and all-
hazards preparedness. This is in addition to significant 
preparedness efforts funded by the individual jurisdictions in 
the NCR.
    Additionally, NCRC and other SPG members have developed the 
NCR ``First Hour Checklist'' to guide coordinated actions 
during the initial response to an incident in the NCR.
    With NCR partners, the NCRC plans or participates in 
exercises and drills for both anticipated and unanticipated 
events. Exercises are administered and coordinated by the NCR 
Exercise and Training Operations Panel, known as ETOP. This 
group's frequent planning and cooperation serves to integrate 
and strengthen all-hazards preparedness, whether for natural, 
man-made, or terrorist-related incidents. Such coordination 
will be essential in the event of a terrorist attack affecting 
the NCR using a weapon of mass destruction.
    In conclusion, NCRC'S established working relationships 
support broader FEMA efforts to maintain and enhance its 
relationships with State and local partners. During a response 
to an incident within the NCR, the NCRC would support FEMA 
Region III and the Federal Coordinating Officer by providing 
situational awareness and participating in the Unified 
Coordination Group. If needed, we would send agency 
representatives to operations or communications centers to 
facilitate information sharing. In the event of an incident in 
the NCR, NCRC stands ready to support FEMA's core mission and 
our Federal, State, and local partners.
    Building on decades of regional collaboration, we work 
every day to build and sustain an integrated effort to prepare 
for, prevent, protect against, respond to, recover from, and 
mitigate all hazards, including WMD terrorism.
    Should an incident occur in the National Capital Region, 
FEMA has established a course of action to mobilize and 
coordinate a well-organized response and recovery.
    Thank you for allowing me to testify, and I am happy to 
answer any questions that the Subcommittee may have.
    [The prepared statement of Mr. Beckham appears as a 
submission for the record.]
    Chairman Cardin. Well, let me thank all three of you for 
your testimony.
    Let me start, if I might, about the seriousness of what we 
are dealing with. If there was a successful terrorist attack 
using weapons of mass destruction, it could not only cause a 
significant number of casualties, but it could very well 
compromise our infrastructure and ability to respond to the 
crisis. It would also create significant fear and panic within 
the community. And, therefore, it becomes even more critical to 
have clear leadership and clear control of the resources that 
are available for the response.
    Therefore, I would particularly interested, Mr. Fine, in 
your report as to where we are with a single person in command 
and the types of preparations that were being done, the update 
of the plans. And, quite frankly, it is rather disturbing, Mr. 
Baker, to see that 9 years after the 9/11 attack we still do 
not have in place the proper functioning plans in the event of 
a successful attack using weapons of mass destruction in the 
United States.
    So I understand they are good people, everybody is trying 
to do the right thing, and I mean that. The intentions here are 
clearly the right intentions. There are a lot of things going 
on in the Department of Justice. There are a lot of areas as 
far as protecting the safety of this country is concerned from 
all types of criminals and people who want to do harm. I 
understand that ATF has a lot of things that it needs to do and 
has been challenged a lot by what has been added to that 
responsibility by actions of Congress.
    But I really want to focus in on how we are going to 
implement this. I hear, Mr. Baker, your comments saying that 
you accept the IG's report and are moving toward implementing 
the five recommendations. Let me just give you a related issue. 
This Subcommittee held a hearing last week on passport fraud. 
It was not our first. We had several reports by Government 
agencies of failures, and when there were commitments made to 
correct that, they were not corrected.
    So how are we going to be--what assurances can you give us, 
Mr. Fine and Mr. Baker, as to how you will both be proceeding 
to make sure that these agreed-to recommendations are, in fact, 
implemented?
    Mr. Fine. Senator Cardin, I do think it is a critical 
issue, and I think it is important that we remain focused on 
this issue even as time goes on. As we get further and further 
from the 9/11 attacks, I think there has been a sense of 
complacency that has developed and that we need to be focused 
on this issue because, as you point out, the effects can be 
catastrophic.
    We saw that the Department had plans, but they had not 
followed through with the plans. We saw that the Department had 
designated the ATF as the lead agency for handling ESF-13 
activation, but they had not provided resources and leadership 
and oversight. And that is what needs to happen here. We hope 
our report will have some impact on that, and we think that 
this hearing can have an impact on that.
    For our part, we will continue to monitor this. We will not 
simply do a report and then hope that the Department implements 
the recommendations. We will monitor the follow-up with the 
Department. We will ask for them to tell us exactly what they 
have done, exactly how they are going to implement the 
recommendations, exactly what the progress is. And we will 
follow through on a regular basis with updates of that, because 
we cannot let ourselves become complacent as time goes on. And 
we intend to follow through with the monitoring of the 
Department's reaction and response to our report.
    Chairman Cardin. Mr. Baker.
    Mr. Baker. Yes, Senator, thank you. I guess just to follow 
up on that, that is definitely--I have worked with the 
Inspector General's office now for many years on several 
different reports that they have prepared, reviewing activities 
that I have been involved in, and that has been my experience, 
that--they are very dogged in following up--issuing a report 
and then following up. And so they keep, you know, the agency's 
feet to the fire on all these different things. And so that is 
one thing that I know will happen and that I know that the 
Inspector General makes regular reports to you.
    Obviously, the Committee having an interest in this, and 
the Subcommittee, I am sure there will be follow-up and there 
will be monitoring. You will be monitoring what it is that we 
do.
    But in addition to that, receiving the Inspector General's 
report I can tell you was not a matter of happiness for the 
leadership of the Department. Obviously, the Attorney General 
and the Deputy Attorney General--it is filled by an acting 
person right now, Gary Grindler--are responsible for all the 
activities of the Department. The Acting Deputy Attorney 
General was not happy about receiving this report, and so I 
work directly for him, and he and our office are seized of this 
issue at this point in time, and we see it, I think, based on 
the recommendations that the Inspector General made and, in 
addition, our own review of the Department's readiness, as 
first and foremost a management issue. We need to do a better 
job of managing this issue.
    There are tremendous resources in the Department. There are 
extremely dedicated and conscientious people. But I think that 
the Department is a large place; there are many components that 
have different pieces of this as reflected in the report. The 
FBI has a critical piece of it and is actually well prepared to 
deal with this. But other components of the Department have 
responsibilities in this area, too, not only to respond to an 
attack should one occur and, for example, under ESF-13, to 
support State and local authorities. That is a critical 
responsibility that we have. We have to do that. But also we 
will have to be ready from a continuity of operations and 
continuity of Government perspective to carry on our business 
and to keep doing what it is that the Department of Justice 
does every day around the country should something happen, for 
example, as you have referenced in the National Capital area.
    So all I can say is that we are seized of it, the 
leadership of the Department is seized of it, and we commit to 
do a better job. That is what we have to do.
    Chairman Cardin. Well, I thank you for that response. As 
you point out, it goes well beyond the implementation of these 
five recommendations. I think these five recommendations are a 
start, but it requires also, as you point out, the management 
structure, the commitment to keep this current and to fight off 
the danger of complacency as time goes on without incident. 
This issue may not be as front and center in the public's 
attention as it needs to be within the Department.
    So I would just urge you to, first, Mr. Fine and Mr. Baker, 
keep us informed, this Committee, as to the implementation of 
the five recommendations so that we will expect regular reports 
as to the implementation of these five recommendations. But, 
Mr. Baker, as you point out, it does go beyond just the 
implementation of these recommendations.
    Mr. Beckham, I want to ask you a little bit about what is 
going on in the Nation's capital. I am concerned about how well 
you are coordinated with the local governments. Prince George's 
County, Maryland, and Montgomery County are part of the region 
directly. I guess I have two questions for you. How do you 
coordinate a potential attack in the capital region with the 
local governments? And is there a strategy for how that is 
handled? If the attack were to occur, for example, in Maryland, 
would there be a different expectation of the response from the 
Maryland partners? Or how is that coordinated?
    Mr. Beckham. Well, Senator, in terms of a WMD event, quite 
obviously it would be at the highest levels of the Federal 
Government in terms of the concern and the response. Our 
particular office, the NCRC, we work regularly with the 
homeland security advisers for the three State-level 
jurisdictions in the National Capital Region, so I would be 
reaching out in the first instance to the homeland security 
adviser for Maryland and giving him the appropriate information 
that we would have available, and not directly through my 
office, but I am certain that he would be in touch with those 
county-level jurisdictions in trying to determine what their 
situation is immediately following the attack and what 
resources they need or what the condition is that is present at 
that time.
    Obviously, again, since it is such a high-level incident, 
the President and the Secretary of DHS would be intimately 
involved, and most likely within the first hour after an 
incident like that, the Secretary at a minimum would be hosting 
a call with the homeland security advisers in the region--and 
it may even be nationwide because of the severity and 
significance of the attack--and would be giving out the 
information that would be available to her at that time. And 
she may have already been briefed by other departments 
throughout the Government.
    Chairman Cardin. Thank you. I am going to turn to Senator 
Kyl because it is my understanding that there may very well be 
a vote called in the next few minutes. If that is the case, I 
will leave as Senator Kyl is conducting his questioning, and 
when he has completed, he will take a brief recess, and we will 
reconvene as soon as I can get back from the vote.
    Senator Kyl. Mr. Chairman, that is what I was just out in 
the anteroom communicating about, and it is now unclear when 
the vote will occur, which was supposed to occur in 2 minutes, 
but now it will probably be delayed a little bit.
    Chairman Cardin. It is nice having someone from the 
leadership here. That is nice to know.
    Senator Kyl. Well, now I hear that it may be any minute, so 
we will move on.
    [Laughter.]
    Senator Kyl. Mr. Beckham, again, my apology for having to 
step out. Given the catastrophic potential of an EMP attack, do 
you think that it should be included as one of the national 
planning scenarios?
    Mr. Beckham. My understanding is that at the Department 
level, the DHS level, that particular scenario is on the list 
of incidents for the Risk Analysis Division. I do not know 
exactly what level or, I should say, degree of preparation they 
have taken to date, but I do know it is on that list that they 
have.
    Senator Kyl. Would you take back a concern on my part that 
it should be considered and planning should exist for a 
response and appropriate action for such an attack?
    Mr. Beckham. Yes, sir. I certainly will.
    Senator Kyl. I appreciate it.
    Chairman Cardin. Well, let me thank our witnesses. We will 
proceed then to the second panel. The record will stay open for 
questions from the Committee, and I would just ask you, in the 
event additional questions are asked, that you respond to them 
as promptly as possible. Once again, thank you all for your 
testimonies.
    Mr. Beckham. Thank you very much.
    Chairman Cardin. Well, let me welcome our two witnesses on 
our second panel: Colonel Randall Larsen is Executive Director 
of the Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism, also known as the WMD 
Commission. Before that appointment, he was the national 
security adviser to the Center of Biosecurity at the University 
of Pittsburgh Medical Center from 2003 to 2009. As a graduate 
of the University of Pittsburgh, I welcome you here today.
    We also have Dr. Michael Frankel, the former Executive 
Director of the Commission to Assess the Threat to the United 
States from Electromagnetic Pulse Attack, also known as the EMP 
Commission. The EMP Commission is charged with identifying any 
steps that should be taken by the United States to better 
protect its military and civilian systems from EMP attack.
    We will start off with Colonel Larsen.

    STATEMENT OF COLONEL RANDALL J. LARSEN, USAF (RETIRED), 
EXECUTIVE DIRECTOR, COMMISSION ON THE PREVENTION OF WEAPONS OF 
  MASS DESTRUCTION PROLIFERATION AND TERRORISM, WASHINGTON, DC

    Colonel Larsen. Mr. Chairman, Senator Kyl, thank you for--
--
    Chairman Cardin. You need to turn your microphone on. Thank 
you very much.
    Colonel Larsen. Mr. Chairman, Senator Kyl, I am 
occasionally asked if testifying in the Senate is an 
intimidating thing. I said, ``It can be in some cases,'' but to 
make sure I was not intimidated today, I decided to have a 6-
foot-8 U.S. Army paratrooper sitting behind me. I am very proud 
to introduce Lieutenant David Lampin. He worked for us at the 
WMD Commission until he decided to join the army. I am very 
proud of his commitment to defend this Nation, and I am proud 
of all who serve in uniform today in this difficult long 
struggle.
    Unfortunately, Mr. Chairman and Senator Kyl, I am not proud 
of the lack of progress in the field of biosecurity. I have 
been working in this field for 16 years. It is frustrating to 
watch this. Senators Graham and Talent on January 26th gave a 
report card from the WMD Commission for preparedness to respond 
to a biological act of terrorism. They assessed a grade of F.
    You need to remember, in 2008 in their Commission report, 
they said bioterrorism is the most likely WMD. That bothers me 
after 16 years working in the field.
    My prepared statement has a lot of details about things you 
can take a look at. In my summary, I want to point out two 
things, because we could have all sorts of authorization bills 
and appropriation bills, and the executive branch can have 
strategies and policies. But if we do not get these two things 
right then nothing else is going to work.
    Senator Kyl, I assume you are a Cardinals fan, kind of 
following what they are doing in training camp. How many 
coaches do you suppose the Cardinals have? It is extraordinary 
in the NFL. You have a wide receiver coach. You have a running 
back coach. You have a quarterback coach. You have a linebacker 
coach. Actually, some of those have assistant coaches. And you 
have a training coach. All necessary to make a complex system 
work.
    How do you think the Cardinals would do this year if they 
did not have a head coach? That is the problem we have in 
biosecurity in America. Senator Talent made that very clear 
when we released the report card. More than two dozen 
Presidentially appointed, Senate-confirmed individuals with 
some responsibility for biodefense, not one has it for a full-
time job, and nobody is in charge.
    Now, some witnesses will sit here and tell you, well, you 
know, this biodefense is very complex. It is DOJ, it is HHS, it 
is DHS, it is DOD, it is EPA. Well, as a former military 
officer and Chairman of the military department National War 
College, I will tell you the most complex thing the U.S. 
military ever did was the Allied invasion of Europe in June 
1944. That was pretty complex. Do you think you could have told 
General Eisenhower it is too complex for one man to be in 
charge? He would not have believed that, and neither would I. 
We will not see significant progress until we have someone in 
charge, until you can have one person come sit at this 
microphone with authority, responsibility, and accountability--
because today you have to call two dozen people up here to 
figure out what is going on to do your oversight 
responsibility, make sure we are spending money the right way.
    The second thing that we have to get right are the 
fundamentals. Senator Cardin, I assume you are a Ravens fan. 
They have got probably one of the best defenses in the NFL, 
maybe one of the best ever. If Ray Lewis was sitting right here 
beside me today, here is what he would tell you.
    You know, in training camp right now, there are a lot of 
discussions going on. Should we have a 3-4 or should we have a 
4-3? When are we going to use cover 2? On second and long, when 
do we go from the nickel package to the dime package? That is 
all very important technical details, the kind of details they 
spoke about in the first panel, all that kind of stuff. But if 
Ray were here, he would tell you, you know, if you do not have 
the fundamentals down--tackling and ward off blocks--then all 
that fancy stuff does not count.
    I do not think we have the fundamentals down, and the No. 1 
fundamental is for the senior political leaders at both ends of 
Pennsylvania Avenue to understand the basic issue of 
biodefense. You cannot get the intelligence community up here 
to give you a briefing, and I explain that in my prepared 
statement, and I will be happy to address it in questions.
    What you need is a briefing by the Department of Homeland 
Security Office of Science and Technology on the Population 
Threat Assessment. Have your staff call Dr. Beth George. 
Senators Graham and Talent, if they were here today, they would 
tell you that is the most impressive and important briefing 
they had in 2 years on the Commission: Population Threat 
Assessment, Dr. Beth George.
    What that tells you is--is there any question what the 
intent is of al Qaeda to come here and kill a lot of Americans? 
The WMD Commission said bio is the best way to do it, easiest 
way to do it. What that Population Threat Assessment will tell 
you is what is possible. What could a team of six people do 
with $50,000 or $100,000? That is what you need to know. That 
is the best thing you can do.
    I will be happy to answer your questions. Thank you very 
much.
    [The prepared statement of Colonel Larsen appears as a 
submission for the record.]
    Chairman Cardin. Thank you very much, Colonel Larsen.
    I am going to apologize. I am going to go over and vote so 
that we can keep the hearing open, and I will be back, 
hopefully before Senator Kyl has completed his questioning.
    Senator Kyl. Dr. Frankel.

  STATEMENT OF MICHAEL J. FRANKEL, PH.D., EXECUTIVE DIRECTOR, 
       COMMISSION TO ASSESS THE THREAT TO THE U.S. FROM 
      ELECTROMAGNETIC PULSE (EMP) ATTACK, MCLEAN, VIRGINIA

    Mr. Frankel. Mr. Chairman, Senator Kyl, thank you for the 
opportunity to come testify today. My name is Mike Frankel, and 
I served as the Executive Director of the EMP Commission during 
the entire span of its activities. I should mention that I am 
actually a physicist and not a lawyer, so if I blow some of the 
nuances, I beg your indulgence in advance.
    The perspective of the EMP Commission was provided in our 
published reports. I do not want to go over them in any detail. 
What I would like to do today is simply briefly review some of 
the unclassified findings of the Commission, and in particular 
update you on the response to those findings by the Government.
    Now, electromagnetic pulse is associated with any above-
the-atmosphere detonation of a nuclear weapon. And that 
includes nuclear weapons of even unsophisticated designs. Since 
it is a geometrical line-of-sight effect, a detonation at a 
height of a few hundred kilometers will effectively span the 
entire United States in its footprint. For assessment purposes, 
a Scud, which might reach an altitude of about 100 kilometers, 
is sufficient to encompass a good part of the eastern seaboard 
with all its great density of people and infrastructure.
    Such EMP has, in fact, been seen in the past briefly toward 
the end of the United States and Soviet Union testing 
experience when various electrical breakdowns were observed 
with high-altitude detonations, burnouts, power supply 
breakdowns, et cetera, et cetera.
    The EMP generated on the ground from such a detonation 
would not immediately damage a human being; indeed, a person 
will not even feel it. But it will affect all of the electronic 
circuitry which surrounds and sustains him. Depending on the 
severity of the exposure, many thousands of components may need 
replacement in the power grid. Indeed, it was the assessment of 
the Commission that the power grid was likely to collapse from 
the cumulative damage that would be incurred.
    Should that damage include numbers of high-voltage 
transformers, which are as big as a house and no longer 
manufactured in this country, recovery could take on the order 
of months to even years.
    I should mention that it is not only ground-based systems 
that are endangered by an EMP, but our entire low earth orbit 
satellite infrastructure would be in danger as well. This is 
because--not, if you will, because of a direct EMP interaction, 
but because of a high-altitude detonation artificially pumps 
the radiation belts which are already up there or creates new 
ones, and subjects satellites to environments they were not 
designed to survive in. This has already happened. In 1962, 
toward the end of our testing program, the STARFISH detonation 
above the atmosphere detonation, about a mega ton or so, 
essentially swept the sky clean of all commercially known 
satellites at the time. They all died within 6 months of the 
detonation, including Telstar, which was the first 
telecommunications satellite.
    What I would like to take my last minute or so discussing 
is the response of the Government. There it is, if you will, 
bipolar. The response of the military infrastructure to the 
findings and recommendations was very positive. Most of the 
recommendations were concurred with by the Department. They 
kind of squirmed at the notion that we would want extra 
reporting requirements, but pretty much all the substantive 
recommendations were accepted. An action plan was promulgated 
by the Secretary. Funds were palmed against it, and activities 
are ongoing.
    In contrast to that, the Department of Homeland Security 
for the civilian infrastructure recommendations, we could 
detect no resonance to the recommendations we directed at them. 
I would say the recommendations have simply languished. We 
could not find any individual or office at the confirmed level 
for which policy and direction for EMP matters was part of his 
portfolio. So there was no belly button, if you will, within 
the Department to address these significant issues.
    I think it was already mentioned that even though the 
Department has identified 15 national planning scenarios for 
disaster planning, including a nuclear scenario involving 
smuggling in of a weapon, there is no thought given to the 
notion that the very same device might be launched at altitude 
and used in an EMP mode, if you will. So they have got a good 
chunk of the nuclear problem which they are addressing, but 
there is a component of it they are simply not addressing.
    Protection of the Nation's critical infrastructures from an 
EMP threat is both feasible and well within the Nation's means 
and resources to accomplish. A number of these actions also 
reduce vulnerabilities to other serious threats to our 
infrastructures, thus giving forth multiple benefits.
    I would like to thank the Committee for this opportunity to 
present my views of this most important issue. I have provided 
expanded remarks to the Committee as part of the record, and I 
invite any questions you may have. Thank you.
    [The prepared statement of Mr. Frankel appears as a 
submission for the record.]
    Senator Kyl. Thank you very much, Dr. Frankel.
    In about 3 minutes, I will have to leave for the vote, too, 
and then we will recess, and Senator Cardin will come back.
    What I am going to suggest is that--I have got a couple 
questions that I can ask both of you for the record, but let me 
preview what they are. Both of you I think put your finger on a 
key problem that is obviously bugging you both, namely, lack of 
a specific person or group within the various agencies that are 
specifically responsible for dealing with these two threats. 
Biological probably is the most probable, as you have noted, 
Colonel Larsen, and an extraordinary amount of damage lasting 
months, as you said, to our entire country that could result in 
the event of an EMP attack, Dr. Frankel. We create commissions, 
and the work that is recommended is not followed up on, that 
your recommendations are languishing, as you say.
    So the question I am going to pose to both of you, and not 
to try to necessarily answer right here, but both of you have 
some familiarity with the workings of Government by virtue of 
your service on these commissions. What recommendations do you 
have for this Subcommittee to procedurally effect the result 
that you are trying to achieve? In other words, do you think 
that it would take reorganization legislation? I always am 
dubious of rearranging the deck chairs. Do you think that 
administrative action within the administration is necessary? 
Does it have to come from the very top, the President?
    In other words, both of you express some frustration that 
sensible recommendations have not fully been implemented 
because nobody is specifically in charge, and you must have 
some idea as to how we could solve that problem rather than 
just saying it is a problem.
    In 30 seconds each--and then I will have to go, and we will 
recess until Senator Cardin gets back--a quick response.
    Colonel Larsen.
    Colonel Larsen. In the letter that Senators Graham and 
Talent sent to President Obama last year about this time, they 
said WMD is such a serious long-term threat, you should make 
the Vice President the top WMD coordinator for the Nation.
    There are only two people in this town that Cabinet 
Secretaries call ``sir,'' and the President is too busy. And he 
can also speak on equal to Governors. If the Vice President--
not just this Vice President, but every Vice President, as long 
as we have a WMD problem, if that was his primary charge, that 
would fix a lot of problems.
    Senator Kyl. He has got a lot of other responsibilities, 
too. He is in charge of--I have forgotten now--the jobs under 
the stimulus bill and in charge of the START Treaty and things 
like that. So does that still work? I mean, he also has a lot 
on his plate.
    Colonel Larsen. Can you think of any job more important 
than protecting America from weapons of mass destruction?
    Senator Kyl. No, I cannot. I am just posing----
    Colonel Larsen. Well, I know he is a busy man. It is about 
priorities.
    Senator Kyl. OK. Good recommendation.
    Mr. Frankel.
    Mr. Frankel. Yes, what we found was that coming down from 
the top, direction from the top is just indispensable. We found 
many competent people within the various nooks and crannies of 
the DHS, some of them, in fact, knowledgeable, especially 
people who would come over from the National Communications 
System when it was absorbed into DHS. But without a 
requirement, without a direction from above, it is simply not 
going to happen.
    So it really has to be--I mean, I would suggest that the 
Secretary have a reporting requirement that would force him to 
appoint someone. It has to be at the confirmed level in order 
to make things happen within the Department.
    Senator Kyl. Well, both of you raise a very difficult 
problem. I am working on it in two other specific areas I will 
not mention to try to get--yes, there is a superficial 
commitment to a particular cause the Government has to address, 
and yet the depth of that commitment is highly questionable 
because there just does not seem to be the commander's intent 
flowing down with sufficient robustness that everybody else 
gets the message. And specific people assigned to carry out the 
responsibilities, therefore, have the priority to do that.
    Let me recess the meeting. I will have some questions for 
the record, and then when Senator Cardin comes back, he can ask 
his questions and close the hearing. Thank you very much, both 
of you, for your testimony.
    The Committee is temporarily recessed until the call of the 
Chair.
    [Recess 10:54 a.m. to 10:56 a.m.]
    Chairman Cardin. The Subcommittee will come back to order. 
I want to thank Senator Kyl for filling in there for a moment.
    I understand in response to one of his questions that, 
Colonel Larsen, you want to give the Vice President some more 
work to do.
    Colonel Larsen. Those are your former colleagues. Actually 
Senators Graham and Talent wrote that letter to President Obama 
about this time last year, not just this Vice President but 
every Vice President, and maybe it would take some action by 
Congress or whatever. Maybe you would need a larger staff or 
whatever. But I cannot think of an issue more important to the 
defense of America than protecting us from WMD. And by the 
President making that gesture, the Vice President is in charge 
of this, as we said when you were not here, there are only two 
people in this town that every Cabinet Secretary calls ``sir,'' 
and the President is probably too busy. But the Vice President 
has a lot of political clout. He also speak on equals with 
Governors, which is very important in a lot of the homeland 
security things and WMD.
    So maybe that is a bridge too far. That is what Senators 
Graham and Talent said. I would say, my opinion was at least we 
need to have the Biodefense Policy Coordinating Committee back, 
bringing the very senior leaders into the White House to look 
at this. That was there in the Clinton administration and the 
Bush administration, and it went away in the Obama 
administration.
    There was also a Special Assistant for Biodefense in the 
Clinton and Bush administrations. There is not today. So if you 
cannot go to the Vice President, at least that level.
    Chairman Cardin. It seems to me we are talking at two 
levels, because the Inspector General's report was very 
complimentary of the FBI in the way that they have organized in 
regards to response to terrorist attack using weapons of mass 
destruction. The Inspector General's report points out that 
they have a person who is designated as the coordinator. They 
have done their training. They have taken this issue very 
seriously. That is not true in other agencies within the 
Department of Justice, and certainly not true within the 
Department of Justice generally.
    But the point that I think you raise, Colonel Larsen--I am 
sorry, Dr. Frankel, I did not hear your testimony, but I 
certainly know of your written remarks--is that you need an 
overall coordination. In addition to the agencies being 
adequately prepared, you need the force and authority of the 
administration and the President behind this issue. And I think 
that is very well pointed out.
    The complexity here is that there are so many different 
types of weapons that could be used, and the unknown can be 
extremely frightening. I looked at the different scenarios, and 
the different scenarios predict the number of casualties from a 
few to huge numbers and the potential damage to our 
infrastructure from modest to extreme. So you really do need 
training. You need chain of command and you need training.
    One of the disappointing parts was that the ATF training 
missions so far have not been concerning weapons of mass 
destruction. They have had training missions, but not dealing 
with the potential biological weapons or nuclear weapons or 
other types of weapons of mass destruction.
    So I understand your recommendation for having a manager, 
having a coach, having a person who is looked upon with a great 
deal of respect and authority to be able to bring the type of 
importance in all agencies, both public and private, to the 
response.
    Other than the point person in the administration, are 
there any other specific recommendations that either one of you 
would make that this Committee should be looking at so that we 
can be adequately prepared for any eventuality?
    Mr. Frankel. I had made some recommendations in my--or I 
had noted some what I felt were lacks in my expanded remarks. 
The national planning scenarios, for example, the Department of 
Homeland Security has identified concern over a nuclear event. 
They have expended billions of dollars, in fact, developing 
sensors meant to interdict such smuggling operations at ports. 
There is a great deal of attention being paid to the problem.
    It seems odd to us that a component of the nuclear problem 
is simply being ignored. The kind of EMP mode attack does not 
require the smuggling in with all the dangers that is required. 
It does not require very accurate aim. You just need to toss 
the thing up there, more or less. So there are certain 
advantages. I am not saying it is more likely or anything like 
that, but it is a component of the problem which simply seems 
to have been ignore, and we do not know what--we sent the 
letter to the Secretary asking him to augment the 15 planning 
scenarios or to augment the nuclear planning scenario to 
consider all of the nuclear scenarios. Have not gotten any 
particular response. And I think that goes to the other issue 
which was discussed while you were out for a moment: the lack 
of a belly button within the Department who has as part of his 
portfolio the setting of policy and direction for the 
Department.
    My own recommendation was not as ambitious as to engage the 
Vice President, though surely I would like to do that as well. 
But there are surely other ways of identifying at the confirmed 
level in the Department someone with authority who would have 
as part of his portfolio these particular issues. And we were 
simply unable to make any progress with DHS, and we believe 
that in large part it was because of that. It was nobody's 
particular responsibility, and, therefore, recommendations 
languished.
    By the way, I would not even say that they were, you know, 
rejected. They were just--nobody dealt with them.
    Chairman Cardin. Thank you.
    Colonel Larsen. Mr. Chairman, could I make a quick comment 
about EMP? The Commissioners did not specifically address EMP, 
but as the Executive Director, I had Dr. Peter Zimmerman do a 
study for me. He is former science adviser to the Senate 
Foreign Relations Committee. His conclusions, from several 
months' research agreed with most of what the EMP Commission 
said. But one thing that I think is being left out here is I 
think perhaps the most likely EMP threat to America is from 
that thermonuclear weapon out there at 93 million miles. We 
know that is going to happen. It is about 2 years until we are 
going to get a lot more solar activity? Whether we get a nuke 
and a Scud or something, I do not know if that is going to 
happen. Nobody can predict it. But I think an EMP from the Sun 
is more likely and the sort of damage the Commission is talking 
about and the sort of actions we need to take as a Nation to 
protect our electrical grid particularly, the sun can certainly 
do that, and there are several cases in history that I am sure 
it is in your testimony or report that I think we need to get 
that out. And it goes back to my point about fundamentals. If 
the senior leaders understand these issues better, then I think 
that they will take the actions as required.
    Chairman Cardin. Well, I thank both of you. I think your 
comments have been extremely helpful. This is not the last of 
our Subcommittee's interest or the Judiciary Committee's 
interest or the Senate's interest in the subject. This is a 
continuing oversight function that we hold very high on our 
priority list. Protecting Americans is our top priority, 
whether it is from terrorist threats or whether it is from 
other types of events. We know that we are not as prepared as 
we need to be. We saw that 9 years ago. We know we have made 
huge progress during the last 9 years. We have. We are better 
prepared today than we were before September the 11th. We know 
that. But we are not as prepared as we need to be, and it is 
still a work in progress. And I hope that this hearing will 
give us some of the information necessary to make sure that we 
do properly oversight the agencies that have this 
responsibility.
    The hearing record will remain open for 1 week for 
statements or additional written questions from members of the 
Committee, and if there are additional questions, we would ask 
our witnesses if they would respond as promptly as possible.
    With that, the Subcommittee will stand adjourned with our 
thanks to our witnesses.
    [Whereupon, at 11:06 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submission for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] T4769.001

[GRAPHIC] [TIFF OMITTED] T4769.002

[GRAPHIC] [TIFF OMITTED] T4769.003

[GRAPHIC] [TIFF OMITTED] T4769.004

[GRAPHIC] [TIFF OMITTED] T4769.005

[GRAPHIC] [TIFF OMITTED] T4769.006

[GRAPHIC] [TIFF OMITTED] T4769.007

[GRAPHIC] [TIFF OMITTED] T4769.008

[GRAPHIC] [TIFF OMITTED] T4769.009

[GRAPHIC] [TIFF OMITTED] T4769.010

[GRAPHIC] [TIFF OMITTED] T4769.011

[GRAPHIC] [TIFF OMITTED] T4769.012

[GRAPHIC] [TIFF OMITTED] T4769.013

[GRAPHIC] [TIFF OMITTED] T4769.014

[GRAPHIC] [TIFF OMITTED] T4769.015

[GRAPHIC] [TIFF OMITTED] T4769.016

[GRAPHIC] [TIFF OMITTED] T4769.017

[GRAPHIC] [TIFF OMITTED] T4769.018

[GRAPHIC] [TIFF OMITTED] T4769.019

[GRAPHIC] [TIFF OMITTED] T4769.020

[GRAPHIC] [TIFF OMITTED] T4769.021

[GRAPHIC] [TIFF OMITTED] T4769.022

[GRAPHIC] [TIFF OMITTED] T4769.023

[GRAPHIC] [TIFF OMITTED] T4769.024

[GRAPHIC] [TIFF OMITTED] T4769.025

[GRAPHIC] [TIFF OMITTED] T4769.026

[GRAPHIC] [TIFF OMITTED] T4769.027

[GRAPHIC] [TIFF OMITTED] T4769.028

[GRAPHIC] [TIFF OMITTED] T4769.029

[GRAPHIC] [TIFF OMITTED] T4769.030

                                 <all>

</pre></body></html>
